Record Press Inc., 229 West 36th Street, New York, N.Y. 10018¢
Tel: (212) 619-4949 Fax No. (212) 608-3141

STATE OF NEW YORK, ]
ss: 80115 AFFIDAVIT OF SERVICE
COUNTY OF NEW YORK )

Haward Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
aver 18 years of age.

That on the 4th day of September 2019 deponent served 3 copies of the within

BRIEF IN OPPOSITION

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY AND ELECTRONIC MAIL

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOU.gov

|, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on September 4, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

Howard Daniels

Sworn to me this
September 4, 2019

RAMIRO A. HONEYWELL a
Notary Public, State of New York Case Name: DHS v. Thuraissigiam

No, 01HO6118731
Qualifiedgn Kings County
issian Exdifes November 15, 2020

  

Docket No.: 19-161

  
   

Notary Public
